0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Amici Curiae Information Dignity
Alliance, American Society of Media Photographers,
Eric Priest, Local Contexts, National Press
Photographers Association (NPPA), American
Photographic Artists (APA), American Society for
Collective Rights Licensing (ASCRL), Graphic Artists
Guild, Inc. (GAG), North American Nature
Photography Association (NANP A) Supporting
Petitioner in 20-1648, James H. Fischer v. Sandra F.
Forrest, Shane R. Gebauer, Brushy Mountain Bee
Farm, Inc., Stephen T. Forrest, Jr., was sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day Service and e-mail to the
following parties listed below, this 25th day of June
2021:
Andrew Benedict Grimm
Digital Justice Foundation
15287 Pepperwood Drive
Omaha, NE 68154
(531) 210-2381
andrew@digitaljusticefoundation.org

Counsel for Petitioner
Daniel Kenneth Cahn
Law Offices of Cahn & Cahn, P .C.
Suite 124
105 Maxess Road
Melville, NY 11747
(631) 752-1600
dcahn@cahnlaw.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
1 Suite 102

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
; Washington, DC 20005

Seth Hudson
Nexsen Pruet, PLLC
227 West Trade Street, Suite 1550
Charlotte, NC 28202
704.338.5307
shudson@nexsenpruet.com

Counsel for Respondents
Edward F. Cunningham
Counsel of Record
Law Offices of Edward F. Cunningham
62 Cambridge Avenue
Garden City, NY 11530
(516) 328-3705
ed@edcuninghamlaw.com
Megan Verrips
Information Dignity Alliance
P.O. Box 8684
Portland, OR 97207
(925) 330-0359
megan@informationdignityalliance.org

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 25, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

L

b•/;.
;-h.-,
·
I

Notary P ~
[seal]

